    -
                             CLOSEOUT FOR M93010003



         This case was brought to OIG on January 4, 1993 by Dr. 0
             program officer in the Division of- -4
            of the Directorate for Engineering. She had received a
                    plagiarism in a proposal submitted by Dr. 0
            Dr.b-4             Dr.                      and Dr.
            Of                     -cts).                    Attached are
          n-i
    the OIG                  report, including its appendices; the
1   memorandum from the Deputy Director of N S F to the Inspector General
    announcing her decision in this case; and the letter of reprimand
    from the Deputy Director to the subject. These documents explain
    the actions subsequently taken by OIG and N S F in this case.


    cc:   Deputy AIG-0, IG




                                  page 1 of 1
                                        NATIONAL SCIENCE FOUNDATION
                                               4201 WILSON BOULEVARD
                                              ARLINGTON. VlRGlNlA 22230




               OFFICE OF THE
              DEPUTY DIRECTOR


                                               January 13,1995




                                Re:     Notice of Misconduct Determination



          The National Science Foundation's Office of Inspector General (OIG) issued an
          Investigation Report on November 23, 1994, in which it found that you plagiarized
          certain material in a grant proposal you submitted to the Foundation. We have reviewed
!
8;




          that report, and conclude that you have committed misconduct.

          d                               n

          Under NSF's regulations, "misconduct" is defined to include "[qabrication, falsification,
          plagiarism, or other serious deviation from accepted practices in proposing, canying out
          or reporting results from activities funded by NSF." 45 CFR 5689.1 (a). Your submission
          of a proposal that incorporated material from a published article without attribution
          constitutes plagiarism, regardless of whether or not you realized at the time that citations
          should have been provided.

       In deciding what actions to take in response to a misconduct finding, NSF considers the
     I;seriousness of the misconduct; whether it was deliberate or careless; whether it was an
     I .
      i~solatedevent or part of a pattern; and whether the misconduct affects only certain
       funding requests or has implications for any application for funding involving the subject
       of the misconduct finding. See 45 CFR §689.2(b). In this case, I believe that several
       factors mitigate the seriousness of your actions. The plagiarism was limited to all or parts
       of 32 lines in the background section of the proposal; the article from which material was
       plagiarized was referenced in several other places in the proposal; it appears that you did
          not hlly appreciate the gravity of your actions; and there is no evidence of a pattern of
          misconduct.

          Because y         o        u required that you submit certifications to             fficials
 i for a period of two years, stating that you have properly cited any material in your
/i        proposals which is not original to you, we will not impose any additional requirements at
          this time. However, we will require that if, prior to July 27, 1996, you suh-j
          proposals to NSF under the auspices of an institution other than the                   -  .-
          you must also submit to the Assistant Inspector General for O v e r s i c e
          General, National Science Foundation, 420 1 Wilson Boulevard, ~ i i n ~ t ovirginia
                                                                                         n,
          22230, a copy of each such proposal, together with your separate written certification
          indicating that the proposal properly cites all material not original to you. This
          certification must be provided simultaneously with the submittal of the proposal to NSF.

          s-            Governing Ap~eals
     I

     '1    Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
           of this decision, in writing, to the Director of the Foundation. 45 CFR §689.9(a). Any
           appeal should be addressed to the Director at the National Science Foundation, 4201
           Wilson Boulevard, Arlington, Virginia 22230. For your information we are attaching a
           copy of the applicable regulations and of OIG's investigation report. If you have any
           questions about the foregoing, please call Lawrence Rudolph, Acting General Counsel, at
           (703) 306- 1060.


                                                        Sincerely,


                                                        Ad?Petersen
                                                        Deputy Director

           Enclosures
                                   NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON. VIRGINIA 22230


                                            January 13, 1995


      OFFICE OF THE
     DEPUW DIRECTOR


      CONFIDENTIAL
     To:              Linda G. Sundro
                      Inspector General
     From:            Anne C. Petersen
                      Deputy Director
     Re:              Resolution of Misconduct Investigations

     This is in response to your confidential investi ation reports c cernin the allegations of
     misconduct in science against Drs.h         a        n     d     -                 In both
     instances, I concur with your r e c o 6 e n i t i o n for a finding of misconduct in science, and I
     am proceeding to take actions along the lines you suggested.
     In reaching my decision on how to proceed, I have obtained input from both legal and
     scientific staff. Based on that input, I have concluded that the conduct described in your
     investigation report is covered by NSFYsmisconduct regulations and is clearly
     inappropriate. The minor modifications to your original recommendations for action were
     discussed between your staff and mine.
     ~ r . i lreceive         l a letter of reprimand with a requirement for certain certifications
     on any proposal submitted to NSF prior to January 1, 1997, on which he serves as
     principal investigator or co-principal investigator. ~-r1
                                                             i.1              be responsible for
     obtaining the certifications and forwarding them with a copy of the proposal to the
     Assistant Inspector General for Oversight. A copy of the letter is attached.
     ~r-.11             also receive a letter of reprimand. Because the
     already required that he provide appropriate certifications to the
     submii a proposal to NSF,we a& &'ng no other action at this point. However, should he
     be principal investigator or co-p 'nci al investigator on a proposal'to NSF submitted
     through another institution, Dr.&              ust provide to the Assistant Inspector General for
     Oversight a copy of the proposal and his personal certification that the proposal properly
     cites all material not original to him.
     The letters to ~ r s- .   d      m             being dispatched simultaneously with this
     memorandum. We expect to inform the institutions of the actions taken once the thrQ day
     period for appeal is ended. Should an appeal be lodged, we will inform the institution of
     the final outcome following resolution of the appeal.

     cc:     Lawrence Rudolph, Acting General Counsel
 I

11
1)
     -                                    -
        REPORT OF INVESTIGATION INTO AN ALLEGATION OF MISCONDUCT IN
                          SCIENCE AND ENGINEERING

                                    SUMMARY
I/
1          The Office of Inspector General (OIG) has determined that Dr.
                     (the subject) of the                      committed      I
     plagiarism in a proposal he submitted to NSF. This conclusion is
     based on an investigation performed by the subject's university.
     OIG recommends that NSF find that the subject committed misconduct
     and take the following action as a final disposition in this case.
     The subject should be told that NSF has made a finding of
     misconduct and should receive a letter of reprimand from the NSF
     Off ice of the Director. Until July 27, 1996, the subject should be
     required, in the event that he submits a proposal under the
     auspices of a grantee organization other than his current
     university, to inform that organization that it must certify that,




                                         -
1,   to the best of its knowledge, he has properly cited any material
     not original to him. Because the subject's university has required
     him to submit a certification to them for a period of two years
     stating that he has properly cited "any material not original to
     him in all proposal^,^^ we believe that it is unnecessary for NSF
     to impose its own certification requirement on the subject's
     proposals emanating from the university.
                                                                              I
                                 OIG' S INQUIRY

          OIG received an allegation that         the   subject committed
     plagiarism in his proposal to NSF,                 entitled 0


 i'inMarch, 1993.


       of the subject's proposal (page 7) and large portions of the
       second, third, and fourth paragraphs of Section 3.2 (page 8) were
       identical or substantially similar to material in the article. The
       text in question spanned all or part of 32 lines in the proposal.
     , O I G noted that the article was cited in the proposal, but that the
     'proposal did not indicate that the relevant passages in the
     'proposal use language taken directly from the article and not
       original to the proposal itself. Copies of the relevant portions
       of the proposal and the article appear in Appendices 1 and 2,
       respectively, with the germane sections highlighted and the
       corresponding passages in the two documents numbered in the
       margins.
                                  page 1 of 7
             OIG wrote to the subject and his co-principal investigators
        requesting their comments and explanations concerning this matter.
        In his reply (Appendix 3 ) , the subject took sole responsibility for
        the content of the proposal and explained that he had Ifnot
        plagiarized any ideas. . . " but had "used the language from this
        article to discuss the motivation for the proposed problem and
        describe some of the previously published workf1(emphasis omitted) .
        He added that he believed when he submitted the proposal that the
1
,       grammatical changes he had made in the original text made quotation
        inappropriate and that he Ifmay have erred by using parts of
        sentences verbatim without proper citation."          He offered to
        apologize to the authors of the paper for using their language
        without proper citation.
             OIG reviewed the other proposals that the subject had
        submitted to NSF and did not find evidence of plagiarism from the
        article.
                          THE UNIVERSITY'S   INVESTIGATION
I
I            OIG decided that there was sufficient substance to the
        allegation to warrant an investigation. We notified the subject s
        university, which asked that we delay our investigation while it
        undertook its own. On August 5, 1994, the university's Director of
        Research transmitted the investigating committee's report and a
        cover letter (Appendix 4) to OIG. He subsequently sent OIG a copy
        of the Provost's final disposition of this case (Appendix 5).
             The committee reviewed the documentary record of OIG1s
        inquiry. It also reviewed the proposal and the article in their
1
    :



        entirety and interviewed the subject and the three co-principal
        investigators listed on the proposal.
            The committee concluded that the subject incorporated into his
       proposal material that was nearly identical or substantially
       similar to material from the article. It further concluded that
       the subject Ifdidnot properly indicate . . . that these passages were
       essentially verbatim from the article." The committee noted that
       "the problem was limited to the background/previous work section of
       the proposaln and that the subject "did list the article in the
    ;i proposal bibliography and referenced it in the text." It did not
    i
       find evidence of plagiarism elsewhere in the proposal.
             The committee stated that the subject was llnegligentll
                                                                  and "did
        not act recklessly, knowingly, and purp~sefully.~~    It concluded
        that the subject, at the time of his act, Isdidnot appreciate that
        he was making a mistaken and "that he now understands that his
        action was unacceptable." It attributed the subject's action to
         carelessness on his part and unawareness of what constitutes
                                    page 2 of 7
          plagiarism in this context."
               The committee recommended that the subject "be required to
          sign a certification to the effect that he has properly identified
          (by quotation marks and appropriate citation) any material not
          original to him in all proposals to any sponsoring organizations
a         sent by [the university] on his behalf. This procedure is to be in
'/        place for a period of two years commencing immediately. It will be
          jointly monitored by the Office -fo               Research and the
          Division of Sponsored Research."
       The Provost found that the subject "has engaged in misconductv
  and stated that the subject's action was "plagiarism under the
  standards of [his] professional community. If     He accepted the
  committee's recommendation that for two years the subject certify
 !/thathe had properly cited material included in his proposals. In
  addition, the Provost sent the subject a letter of reprimand and
  required that for two years the subject file a similar
  certification for work he submitted for publication.
                                    OIG' S ANALYSIS
           For NSF to make a finding of misconduct, a preponderance of
      the evidence must show that the subject committed culpable acts
     \witha culpable state of mind. O I G believes that the preponderance
     "of the evidence indicates (1) that the subject committed acts that
      are misconduct under NSF1s Regulation on Misconduct in Science and
      Engineering, and ( 2 ) that he did so with a culpable state of mind.
      This section addresses these two issues in turn.
          Act
     ,I
     I     By his own admission, the subject incorporated material from
     '/thearticle into his proposal without attribution. Both he and his
      co-principal investigators agree that he was solely responsible for
     doing so.
           NSF1s Regulation on Misconduct in Science and Engineering
     defines misconduct in part as "serious deviation from accepted
     practices in proposingN research. The regulation specifically
     mentions only three examples of misconduct, and one of these is
     iiplagiarism. Scientists generally consider plagiarism a serious
     lviolationof professional standards.
               Plagiarism is generally understood to involve using the words
          or ideas of another person without giving appropriate credit. In
          this case, all or part of 32 lines in the subject's proposal,
          spanning several paragraphs, contain plagiarized material. OIG
          believes that failing to give credit for this amount of material is
      ji                             page 3 of 7
     a serious deviation from accepted practice and fits NSF1s
     definition of misconduct. The subject's university reached this
     same conclusion. OIG believes that NSF should clearly endorse the
     university's finding.
     State of Mind
        OIG believes that the preponderance of the evidence indicates
   that the subject was at least grossly negligent.'      We believe
   that, in some respects, the subject was knowing. He certainly knew
1 that he had not himself written the material from the article, and
   he knew that he had not indicated who had written it. Even if we
   were to accept the investigating committee's conclusion that the
   subject was not aware of how to reference the excerpts from the
   article properly, we would conclude that he was grossly negligent
   and not merely careless. Scientists must know how to propose and
j report research as well as how to conduct it.         Part of this
   knowledge is knowledge of how to cite the sources of the words and
   ideas that go into their writings. The subject, as his curriculum
   vitae indicates, is a senior faculty member with numerous
   publication credits. This was his eighth proposal submission to
   NSF alone. A senior scientist who believes that he does not need
 I
   to indicate that his NSF proposal incorporates the words of a
 ' published article lacks knowledge that is central to a core moral
   competence in his community, i.e., knowledge of how to credit the
   work of other scientists and avoid misappropriating credit for
   oneself.    The subject's failure to acquire such knowledge,

I         '  OIG believes that when the investigating committee called
     the subjectis action "negligentl1and flcareless,it misapplied the
     labels. It certainly did not mean that the subject inadvertently
     omitted to indicate the source of his words or that his omission
     was only a minor transgression of established scholarly practice.
     In the subject's letter to OIG (Appendix 3 ) ) he indicates that when
     writing his proposal "since [he] made minor modifications to these
'!   sentencesl1 he "felt it was inappropriate for me to enclose them in
     quotes or use indentation." His statement thus makes clear that
     the omission was not inadvertent.          OIG believes that the
     committee's conclusion "that the accused has engaged in scientific
      misconduct^^ is evidence that it does not view this as a minor
     transgression.
'1
          We interpret the committee's report as concluding that the
     subject did not appreciate the gravity of his act when he committed
     it and did not inquire into proper citation practices when he
     decided to adapt material from the article for his own use. OIG
     concludes that, even by the account most favorable to the subject,
     the subject was grossly negligent.
 1
                                 page 4 of 7
11

              especially at this advanced stage in his career, is egregious, and
              cannot be dismissed as merely careless.
              OIG's   Conclusion Regarding Misconduct in Science
 I
         OIG concludes that a preponderance of the evidence supports
    the finding that the subject incorporated text from a published
    article by other authors into his NSF proposal without giving due
    credit and that he was at least grossly negligent in doing so. OIG
    therefore concludes that the subject committed misconduct as
    defined  in NSF1s Regulation on Misconduct in Science and
 ;I Engineering and recommends that NSF make a finding to that effect.
                                 OIG'S   RECOMMENDED DISPOSITION
            Under S689.2 (b) of NSF' s misconduct in science and engineering
     i regulation, upon making a finding of misconduct, NSF, in
       determining what actions it should take, must consider the
       seriousness of the misconduct. This includes considering the state
       of mind with which the subject committed misconduct and whether the
       misconduct "was an isolated event or part of a pattern." We have
       already explained why we conclude that the subject's action is a
     i serious deviation from accepted practice and hence is misconduct;
       this section explains OIG1s recommended actions in light of our
       assessment of the seriousness of the subject' s misconduct, i .e. , of
       how serious this instance of plagiarism is in relation to other
       instances.
     II            OIG believes that misappropriating credit is unacceptable in
              the scientific community. One factor affecting seriousness is the
              character of the material that is misappropriated.      The most
              serious misappropriations of credit are those that involve taking
              credit for the original ideas of another scientist. Far less
         ,    serious are those that involve taking credit for original
     "        combinations of words that contain no original ideas. Between
              these extremes are misappropriations that take credit for novel
              selection, organization, and juxtaposition of familiar ideas and,
              in so doing, potentially leave a misleading impression about the
              author's knowledge or competence.
      il
                   The subject's misappropriation in this case falls into this
              middle category.    By not appropriately citing and quoting the
              article, the subject implicitly took credit for the words and
              organization of ideas in the article. A scientist reading the
              subject's proposal would assume that the subject had himself
          1   organized the ideas in the background section and that he possessed
              the command of the literature necessary to produce a focused
              synthesis of the relevant research. Indeed, the reviewer who made
              the plagiarism allegation raised doubts about the subject s command
                                            page 5 of 7
               of a certain portion of the literature based in part on the
               reviewer's observation that the only references to this portion of
               the literature came from the plagiarized article. The subject's
               plagiarism invited other reviewers, who lacked accurate information
               about who developed the text in question, to draw incorrect
               inferences about the subject's expertise and, as a result, make
               mistaken evaluations of the proposal.        OIG believes that a
I!
               misrepresentation of credit that could cause a reviewer to form a
               mistaken impression of the PI'S command of relevant literature is
               a serious matter, even when compared to many other instances of
               plagiarism.
I/
                    Several circumstances somewhat mitigate the seriousness of the
               offense :
                    1.   The subject's plagiarism was, in the words of the
                    investigating committee, "limited to the background/previous
                    work section of the proposal and did not involve the balance
                    of the proposal wherein [the subject] develops his proposed
                    research concept and approaches,"
                    2. The subject made reference to the article from which he
                    plagiarized in several places in his proposal; one such
                    reference occurs in a sentence that appears directly after the
                    largest block of plagiarized material.
                    3.   The subject's action may have been grossly negligent
                    rather than "deliberate,ltand there is evidence that he did
                    not fully appreciate the gravity of the offense when he
                    committed it.
                    4.   The subject admitted his wrongdoing and        took sole
     li
                    responsibility for it.
                    5. There is no evidence that the subject's action is part of
                    a pattern of misappropriating credit for the work of others.
     I!             In response to the subject's misconduct and to emphasize the
               importance that NSF places on giving due credit to the work of
               others, we recommend that the subject be sent a letter of
               reprimand, which is a Group I action (see 5689.2 (a)(1)(i)) .
      I1

                    The subject's university has required him to submit a
               certification to them for a period of two years stating that he has
               properly cited "any material not original to him in all proposals. "
               We believe that this certification adequately protects NSF1s
      'I       interest and makes it unnecessary for NSF to impose its own
               certification requirement on the subject's proposals emanating from
               the university. We recommend that until July 27, 1996, NSF require
          I/                              page 6 of 7
                  the subject, if he submits a proposal under the auspices of a
                  grantee organization other than his current university, to inform
                  that organization that it must certify that, to the best of its
                  knowledge, he has properly cited any material not original to him.
                  This is also a Group I action (see S689.2 (a)(1)(iii)) .
"



I,




                       OIG believes that, by making the grantee organization, and not -
                  only the subject, responsible for implementing the certification'
    li            that NSF requires, NSF would be acting in the spirit of §689.3(a)
                  of NSF's Regulation on Misconduct in Science and Engineering. This
                  section states that' "awardee institutions bear primary
                  responsibility for prevention and detection of misconduct^ and that
     '            NSF relies on these institutions to "take action necessary to
     ,            ensure the integrity of research." By requiring institutional
                  action, NSF is not sanctioning the institution--itis enlisting its
         ,        cooperation and recognizing its responsibility to ensure the
                  integrity of research.       Where a researcher has committed
                  misconduct, the institution cannot immediately assume that the
                  researcher will thereafter behave in ethically appropriate ways.
         "        Rather, the institution needs to take an active role in monitoring
                  the researcher's NSF submissions and upholding the ethical
                  standards of the scientific community. Making certifications the
             ,,   responsibility of the institution as well as the researcher is one
                  way of recognizing the importance of institutions in preventing
             r    misconduct.




                                              page 7 of 7
